RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 19-71
FNU Tanzin, et al.,
Petitioners,
v.
Muhammad Tanvir, et al.,
Respondents.
As required by Supreme Court Rule 33.1(h), I, Gordon D. Todd, certify that
the Brief of General Conference of Seventh-day Adventists as Amicus Curiae in
Support of Respondents in the foregoing case contains 6,923 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 12, 2020.
/s/ Gordon D. Todd
GORDON D. TODD
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

